   JULY 27, 2004




Acquisition
Purchase Card Use and Contracting
Actions at the U.S. Army Corps of
Engineers, Louisville District
(D-2004-104)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
A&E                   Architect and Engineer
ACO                   Administrative Contracting Officer
APC                   Agency Program Coordinator
EFARS                 Engineer Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IG DoD                Office of Inspector General, Department of Defense
PR&C                  Purchase Request and Commitment
SOP                   Standing Operating Procedure
SSA                   Source Selection Authority
              Office of the Inspector General of the Department of Defense
Report No. D-2004-104                                                                         July 27, 2004
      (Project No. D2003CK-0185)

                  Purchase Card Use and Contracting Actions at the
                  U.S. Army Corps of Engineers, Louisville District

                                         Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers managers,
certifying officials, approving officials, alternate approving officials, cardholders, and
contracting officials responsible for implementing and overseeing purchase card and
contracting processes should read this report because it identifies problems with internal
controls.

Background. This audit is in response to a Defense Hotline referral regarding
irregularities in purchase card use and contracting actions at the U.S. Army Corps of
Engineers, Louisville District. The Hotline allegations related to purchase card
irregularities were associated with transactions reviewed from March through June 2002
as part of an Army Regulation 15-6, “Procedure for Investigating Officers and Boards of
Officers,” investigation. We reviewed transactions associated with the investigation to
determine whether purchase card-related allegations were substantiated.

The District Contracting Division had overall responsibility of the purchase card program
for 42 field offices across 5 states. In FY 2003, the District was composed
of 166 cardholders and 95 approving officials, including alternate approving officials,∗
responsible for purchase card accounts. District cardholders made 15,228 purchase card
transactions, valued at $5.9 million. During this review, we looked at 597 FY 2003
transactions for 12 purchase cardholder accounts, valued at $993,000.

Results. Purchase card controls and contracting actions at the U.S. Army Corps of
Engineers, Louisville District needed improvement. Specifically, District management
needed to implement the purchase card program and process contracting actions in
accordance with applicable regulations.

Although purchase card controls at the U.S. Army Corps of Engineers, Louisville District
have improved since the June 2002 Army Regulation 15-6 investigation report, additional
improvements were still needed to properly implement purchase card controls.
Specifically, controls over separation of duties were inadequate, and program oversight
was weak. There was a lack of separation of duties for 237 of the 597 transactions, none
of the 12 purchase card accounts were reviewed annually, and 10 of the 12 purchase card
account files were incomplete. Furthermore, unless purchase card controls are
strengthened and management engages in more proactive oversight, the Army cannot
ensure continuous program improvement and risk mitigation necessary to prevent fraud,
waste, or mismanagement. The Louisville District Commander needed to establish a

∗
    An approving official can also be an alternate approving official for another cardholder, but an individual
    does not have to be an approving official to be an alternate approving official.
full-time Agency Program Coordinator, implement Army guidance on purchase cards,
and review all approving official account files annually. For detailed recommendations,
see Finding A of this report.

District contracting actions were not consistently executed in accordance with applicable
regulations during the contract award process. Specifically, 6 of 11 contracts that we
reviewed contained contracting irregularities in the following areas: contract
documentation signature authority (1 contract), source selection plan approval timeliness
(3 contracts), solicitation procedures application (1 contract), and design-build civil
works contract funding (1 contract). As a result, the District Contracting Division could
not ensure the effective execution of the contracting functions. There is a need to
strengthen procedures to comply with procurement guidance, provide training on
procurement procedures, and eliminate conflicting provisions between engineering and
acquisition regulations. For detailed recommendations, see finding B of this report. See
Appendix C for a discussion of the Defense Hotline allegations and results involving
purchase card controls and contract awards at the Louisville District.
Management Comments and Audit Response. The Deputy Commander, U.S. Army
Corps of Engineers agreed with all but one of the recommendations to improve controls
over purchase cards and contracting actions. The Deputy Commander nonconcurred with
revising the Louisville District Guidebook to address internal controls for separation of
duties. The Deputy Commander stated that the Corps’ purchase cardholders were exempt
from the policy that no one individual can be granted the authority to initiate, approve,
obligate funds, and receive goods on the basis that adequate separation of duties already
exists within the Corps of Engineers Financial Management System. The Deputy
Commander stated that no payments may be made until the approving official approves
cardholders’ statements. Additionally, the District has 42 field offices, many of which
are in remote locations with just a few employees, and the cost of implementing approval
for credit card purchases when adequate controls exist would outweigh the benefits
derived. We disagree that adequate separation of duties exists in the credit card process
to prevent fraud and abuse. The Louisville District had not complied with Army
requirements for separation of duties. Purchase requests and commitments were not
initiated, approved, and certified by three different individuals as required by the Army
Standing Operating Procedure. Furthermore, the Army Corps of Engineers does not have
the authority to exempt cardholders from the Army’s separation of duties requirement.

We request that the Deputy Commander reconsider his position on the controls for
separation of duties and provide additional comments or alternate solutions by
September 27, 2004. See the Finding section of the report for a discussion of
management comments and Management Comments section of the report for the
complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                          i

Background                                                 1

Objectives                                                 2

Findings
     A. Purchase Card Controls                             3
     B. Contracting Controls                              12

Appendixes
     A.    Scope and Methodology                          16
     B.    Prior Coverage                                 19
     C.    Summary of Allegations and Results             21
     D.    Purchases Made Before Certification of Funds   30
     E.    Report Distribution                            31

Management Comments
     U.S. Army Corps of Engineers                         33
Background
           We conducted this audit in response to a Defense Hotline referral regarding
           irregularities in purchase card use and contracting actions at the U.S. Army Corps
           of Engineers, Louisville District. The Hotline allegations related to purchase card
           irregularities were associated with transactions reviewed from March through
           June 2002 as part of an Army Regulation 15-6, “Procedure for Investigating
           Officers and Boards of Officers,” investigation. We reviewed transactions
           associated with the investigation to determine whether the purchase card related
           allegations were substantiated. (See Appendix C for a discussion of the
           allegations made to the Defense Hotline.)

           U.S. Army Corps of Engineers, Louisville District. The U.S. Army Corps of
           Engineers, Louisville District, part of the Great Lakes and Ohio River Division,
           had projected FY 2003 expenditures of $553 million. The District is spread
           across 5 states containing 42 field offices. In FY 2003, the District was composed
           of 166 cardholders and 95 approving officials, including alternate approving
           officials,∗ who were responsible for purchase card accounts. District cardholders
           made 15,228 purchase card transactions, valued at $5.9 million.

           Federal Purchase Card Program. The first Government-wide purchase card
           contract was awarded by the General Services Administration in 1989. DoD
           entered the program at that time. On October 13, 1994, the President issued
           Executive Order 12931 mandating increased use of purchase cards for
           micro-purchases (purchases under $2,500). The Federal Acquisition Streamlining
           Act of 1994 established $2,500 as the micro-purchase threshold and eliminated
           most of the procurement restrictions for purchases identified within that
           threshold.

           How the DoD Program Works. DoD organizations are responsible for
           distributing cards, training employees, and managing the purchase card program.
           Each participating organization designates an office to manage the program and
           provide training, maintain a current list of cardholders and approving officials,
           and perform an annual oversight review of the program.

           DoD appointed agency program coordinators (APC) with the responsibility for
           program management at the installation, major command, and Component levels.
           APCs issue purchase cards, establish limits on spending, and monitor use of a
           purchase card account. Also, DoD employees are assigned as “approving
           officials” to authorize and approve purchases for payment. Once a cardholder
           makes an authorized purchase, the cardholder and the approving official reconcile
           the purchased goods and services with the bank statement before the approving
           official requests payment from the Defense Finance and Accounting Service.

           Charge Card Task Force. On March 19, 2002, the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer established a DoD Charge Card Task Force
           to evaluate the purchase and travel card programs of the Department and to

∗
    An approving official can also be an alternate approving official for another cardholder, but an individual
    does not have to be an approving official to be an alternate approving official.



                                                        1
    develop recommendations for improvements. On June 27, 2002, the Task Force
    issued the DoD Charge Card Task Force Final Report. The Task Force focused
    on management emphasis and organizational culture, compliance, and process
    and workforce developments.

    Army Regulation 15-6 Investigation. An Army Regulation 15-6 investigation
    of the District was conducted to review credit card and convenience check
    transactions for the period between April 2000 and April 2002. Nearly
    40,000 transactions and more than $20 million worth of purchases were reviewed.
    The investigation found that District cardholders had engaged in the practice of
    splitting transactions to support their customers. Specifically, it appeared that
    single purchases totaling more than $2,500 were split into multiple smaller
    segments less than $2,500 to remain within the $2,500 micro-purchase threshold
    allowed for credit card purchases. The investigation identified the need for
    265 ratifications, involving 2,800 split transactions over a 24-month period. The
    value of these 265 ratifications was about $3.5 million, or approximately
    17 percent of the value of all transactions investigated. The Army
    Regulation 15-6 report, issued in June 2002, made 33 general, procedural,
    training, and auditing recommendations in addition to recommending disciplinary
    actions. The report recommended that the District APC should be the single point
    of contact for all purchase card-related questions, concerns, and issues. The
    report also recommended developing and implementing strict guidelines for
    performing purchase card audits.


Objectives
    The audit objective was to determine whether purchase card controls and
    contracting actions at the U.S. Army Corps of Engineers, Louisville District were
    effective and appropriate and executed in accordance with applicable laws and
    regulations. Specifically, we reviewed Hotline allegations of purchase card
    irregularities that were associated with transactions reviewed as part of an Army
    Regulation 15-6 investigation report, June 2002. We also reviewed the
    management control program as it related to the audit objective. See Appendix A
    for a discussion of audit scope, scope limitations, and methodology. See
    Appendix B for a discussion of prior coverage.




                                        2
           A. Purchase Card Controls
           Although purchase card controls at the U.S. Army Corps of Engineers,
           Louisville District had improved since the June 2002 Army Regulation
           15-6 investigation report, additional improvements were still needed to
           properly implement purchase card controls. Specifically, controls over
           separation of duties were inadequate, and program oversight was weak.
           There was a lack of separation of duties for 237 of the 597 transactions
           selected for review. The lack of separation of duties occurred because
           District purchase card managers did not effectively implement Army
           purchase card program guidance and did not adequately enforce existing
           controls throughout the purchase card process. None of the 12 District
           purchase card accounts were reviewed annually as required. In addition,
           10 of the 12 purchase card account files were incomplete. Unless
           purchase card controls are strengthened and management engages in
           proactive oversight, the Army cannot ensure the continuous program
           improvement and risk mitigation necessary to prevent fraud, waste, or
           mismanagement.


DoD Purchase Card Guidance
    Department of Defense, “Government Purchase Card Concept of
    Operations,” July 31, 2002 (Revision 1, March 31, 2003). The Concept of
    Operations provides an overview on how to establish and operate the Government
    purchase card program within the DoD. The Concept of Operations defines an
    APC as an individual designated to manage the Government purchase card
    program. APCs are required to develop and implement a surveillance plan that
    includes establishing how reviews should be conducted and who should conduct
    the reviews. The Concept of Operations requires that all approving official
    accounts be reviewed at least annually.

    Department of Army, “Government Purchase Card Standing Operating
    Procedure,” July 31, 2002. The Army Standing Operating Procedure (SOP)
    defines the requirements for establishing, maintaining, and operating the purchase
    card program. The Army SOP requires APCs at the organization level to manage
    the day-to-day operations of the Government purchase card program, including
    conducting initial and biannual refresher training for cardholders and approving
    officials and conducting annual reviews of each assigned approving official. The
    approving official has oversight responsibility for a number of cardholders to
    ensure transactions are necessary and for official purposes. The Army SOP also
    requires proper separation of key duties, such as making purchases, authorizing
    payments, certifying funding, and reviewing and auditing functions to minimize
    the risk of loss to the Government to the greatest extent possible. In addition,
    resource managers are required to certify availability of funding and cardholders
    must ensure that funds are certified before making purchases.




                                        3
     U.S. Army Corps of Engineers, Louisville District, Purchase Card
     Guidebook, October 1998 (Revised August 31, 2001). The Louisville District
     Guidebook provides the purchase card policies and procedures for the District.
     The Louisville District Guidebook requires cardholders to ensure that funds are
     certified before they make a purchase. Approving officials must certify funding
     through the Corps of Engineers Financial Management System. The cardholder
     must include the purchase request and commitment (PR&C) form as part of the
     permanent record, along with all receipts, the monthly statement of account, and
     the monthly log. The APC must prepare a delegation of authority letter for each
     cardholder and approving official. The delegation of authority letters must be
     signed by the Chief of the District Contracting Division, the cardholder, and the
     approving official, and copies must be retained by the cardholder, approving
     official, and the APC.


Louisville District Purchase Card Program
     In FY 2003, the District was composed of 166 cardholders and 95 approving
     officials, including alternate approving officials. District cardholders made
     15,228 purchase card transactions, valued at $5.9 million. We reviewed FY 2003
     transactions and account files for 12 cardholders, which included 597 purchase
     card transactions, valued at $993,000.

     Oversight of the Purchase Card Program. The District Contracting Division
     had overall responsibility for Government purchase card program operations at all
     of its 42 field offices. The Army SOP requires the Chief of the District
     Contracting Division to designate an APC to provide complete oversight of the
     purchase card program. In addition, the Army SOP states that APCs receive and
     process purchase card applications from approving officials; conduct training;
     prepare policy and guidance; prepare delegation of authority letters to appoint
     cardholders, approving officials, and certifying officials; change dollar thresholds
     for purchase cards; cancel cards; and perform audit reviews. For example, the
     DoD Charge Card Task Force Final Report, June 27, 2002, acknowledged that
     many APCs perform the required purchase card program responsibilities on an
     “other duties as assigned” basis. However, the DoD Task Force made a
     recommendation to develop a best practice for the appropriate skill sets
     specifically needed by an APC.

     Agency Program Coordinator. The Chief of the District Contracting Division
     designated a full-time APC for the purchase card program in October 2003.
     However, the June 2002 Army Regulation 15-6 report noted that the APC “was
     never, and still is not, a full-time responsibility. It was a very small and
     de-emphasized aspect of different people’s responsibilities within
     Contracting. . . .This should be a full-time position.” The APC stated that the
     Chief of the District Contracting Division informally designated a contract
     specialist to serve from July 2002 through May 2003 as a part-time APC in
     response to the recommendations made by the Army Regulation 15-6 report. The
     part-time APC was responsible for retraining cardholders and approving officials,
     conducting annual reviews of purchase card accounts, and providing oversight of
     the purchase card program, in addition to performing contract specialist


                                          4
     responsibilities for the District. The APC position was then vacant from May 19
     through October 14, 2003. On October 15, 2003, the Chief of the District
     Contracting Division unofficially appointed the contract specialist as the full-time
     APC at the direction of the Acting District Deputy Commander. However, the
     APC continued to perform contract specialist duties on an “other duties as
     assigned” basis.


Louisville District Purchase Card Policies and Procedures
     District purchase card managers did not effectively implement Army purchase
     card guidance and did not adequately enforce existing controls throughout the
     process.

     Ineffective Implementation of Army Purchase Card Guidance. District
     purchase card managers did not effectively implement Army purchase card
     guidance. The District Contracting Division issued the Louisville District
     Guidebook in October 1998 and issued a revised version in August 2001.
     However, the District Contracting Division did not update the Louisville District
     Guidebook to reflect the purchase card program requirements in the Army SOP.
     Subsequently, the Army issued its Government Purchase Card SOP on July 31,
     2002. The Army SOP requires proper separation of key duties such as making
     purchases, authorizing payments, and certifying funds. The Army SOP also
     requires annual reviews on all assigned approving officials. However, the
     Louisville District Guidebook does not adequately address proper separation of
     duties. It is also unclear and overly general on the performance of annual
     reviews.

             Separation of Duties. The Louisville District Guidebook does not
     adequately address separation of duties for initiating, approving, certifying, and
     receiving purchases. The Army SOP requires proper separation of key duties
     such as making purchases, authorizing payments, certifying funds, and reviewing
     auditing functions. In addition, the Army SOP and the Louisville District
     Guidebook require cardholders to ensure that funds are certified by the
     appropriate official to pay for purchases before the cardholders make purchases.
     However, controls over separation of duties for initiating, approving, and
     certifying PR&Cs were inadequate.

                    Purchase Requests and Commitments were Initiated,
     Approved, and Certified by a Single Individual. Six of the 12 cardholder
     account files had a total of 206 transactions containing PR&Cs that were initiated,
     approved, and certified by a single individual. For example, one cardholder
     account file had 72 transactions for FY 2003. Of those 72, 59 (82 percent),
     valued at $70,544, had PR&Cs initiated, approved, and certified by a single
     individual. Another cardholder account file had 174 transactions for FY 2003.
     Of those 174, 114 (66 percent) valued at $12,027, had PR&Cs initiated, approved,
     and certified by a single individual. In addition, a third cardholder account file
     contained a PR&C initiated, approved, and certified by a single individual in the
     amount of $2,475 for the purchase of photography services. See the following
     table for a summary of the six cardholder account files.


                                          5
             Summary of PR&Cs Initiated, Approved, and Certified by a
                              Single Individual

                   Number of     Transactions Containing                  Percentage of
 Cardholder                                                 Amount of
                  Transactions    PR&Cs Prepared by a                      Cardholder
 Account File                                              Transactions
                   Reviewed         Single Individual                     Transactions
         1             27                    2                   $4,482         7
         2             11                    5                   $2,531        45
         3             72                   59                  $70,544        82
         4             21                    2                     $103        10
         5            174                  114                  $12,027        66
         6             26                   24                     $877        92
 Total                331                  206                  $90,564        62

                Purchases Made Before Certification of Funds. PR&Cs must
be certified by the appropriate official before a cardholder can make a purchase in
accordance with Army and District regulations. However, District personnel
certified PR&Cs after purchases were made. Of the 12 cardholder account files
that we reviewed, 37 of the 597 transactions contained PR&Cs that were certified
after purchases were made. For example, one cardholder charged $2,091 for park
attendant services on May 5, 2003, and the PR&C was certified 56 days later, on
June 30, 2003. Another cardholder charged $1,412 for fuel filters on March 7,
2003, and the PR&C was certified 60 days later, on May 6, 2003. Proper
separation of duties would ensure that PR&Cs are certified before purchases are
made in accordance with Army and District regulations. See Appendix D for a
summary of the transactions that were certified after purchases were made.

        Annual Purchase Card Account Reviews. Contracting personnel did
not perform required annual purchase card reviews. The Louisville District
Guidebook states that the APC will perform audit reviews, but it does not provide
guidance on how or when the reviews should be done. The Army
Regulation 15-6 investigation report, issued in June 2002, recommended
developing and implementing strict guidelines for performing purchase card
audits. The Army SOP requires District-level APCs to review 100 percent of
approving official accounts annually. As part of this procedure, cardholder
accounts assigned to an approving official must also be reviewed.

        Contracting personnel stated that before the Army SOP was issued in
July 2002, contracting teams were responsible for performing annual “public
relations” visits, which included reviewing purchase card accounts. Contracting
personnel stated that District management did not support the purchase card
account reviews and discouraged identifying and reporting on problems.
Contracting personnel were unable to provide any reports on these reviews;
therefore, no documentation was available to support that the reviews were
conducted, how they were conducted, and whether problems were identified.

        The APC did not perform the required annual purchase card reviews for
any of the 12 FY 2003 cardholder account files that we reviewed. Furthermore,
of the 166 cardholder account files in the District, the APC reviewed only 4 in
FY 2003; of the 95 approving official and alternate approving official account



                                        6
files, the APC reviewed only 3 in FY 2003. Annual reviews, a key control for
ensuring compliance with purchase card guidance, were not performed
effectively.

Inadequate Enforcement of Existing Controls. District managers did not
adequately enforce existing purchase card program controls. Specifically,

       •   Government personnel prepared and provided invoices for vendors,

       •   managers did not properly direct purchase card-related questions to the
           APC, and

       •   cardholders failed to properly retain required supporting
           documentation in cardholder account files.

        Government Personnel Prepared and Provided Invoices for Vendors.
Of the 12 cardholder account files that we reviewed, 3 cardholder account files
contained transactions that included invoices prepared and provided by District
personnel for vendors. Specifically, the 3 cardholder account files for 5 different
vendors contained 19 similarly formatted invoices, totaling $55,570. The
three cardholders confirmed that District personnel provided generic invoice
forms to the five vendors.

       Two of the three cardholders stated that four of the five vendors used the
generic invoice for future billing submissions. The four vendors completed the
number of days worked, total dollar amount of the billing, and date of the invoice.
The vendors signed the invoice and submitted it to the cardholder. The
cardholders stated that District personnel provided generic invoice forms to the
vendors because the vendors did not know what needed to be included on an
invoice to the Government.

       One of the three cardholders stated that District personnel prepared and
mailed standard invoices for the fifth vendor because the vendor was elderly and
preparing the invoice was easier for the cardholder. The cardholder filled in the
days worked and dollar amount, and the vendor signed the invoice stating that the
information was true and correct. However, all five vendor contracts included a
contract clause requiring vendors to submit original invoices. The clause is a
commercial item clause from the Federal Acquisition Regulation Part 52.212-4,
“Contract Terms and Conditions - Commercial Items.” The commercial item
clause provided detailed guidance on items to be included in vendor invoices.
The vendors who submitted invoices prepared by Government personnel did not
comply with the commercial item clause included in the contracts.

        Additionally, two other District cardholders at Mississinewa Lake stated
that they also prepared invoices for one vendor because the vendor was elderly.
Field personnel found several mistakes with those invoices. We did not review
those cardholder account files.

      Purchase Card Point of Contact. The Army SOP requires APCs to
manage the day-to-day operations of the purchase card program. In addition, the
Army Regulation 15-6 investigation report, issued in June 2002, recommended


                                     7
   that the District APC should be the single point of contact for all purchase
   card-related questions, concerns, and issues. However, District cardholders posed
   purchase card-related questions to different District managers and received
   different interpretations on guidance. Some cardholders asked managers in their
   chain of command, some asked personnel in the Resource Management Office,
   and others sought answers from District Contracting Division personnel. When
   asked about procedures for addressing questions on purchase card use, one
   cardholder stated that he would contact the APC. Two other cardholders stated
   they would check the Army SOP and the Louisville District Guidebook for
   answers and, if necessary, contact their approving official, then the operations
   manager for their area, and finally the District Contracting Division.

           In a November 2000 e-mail, an operations manager asked the Resource
   Management Office whether a single individual could initiate, approve, and
   certify PR&Cs and a second individual could document receipt of goods. The
   Resource Management Office reply stated that the approver of a PR&C should
   not be the originator of the PR&C, but that the process described by the
   operations manager was acceptable. One cardholder was still using that guidance
   in January 2004. However, in May 2002, the Chief of the Resource Management
   Office distributed an e-mail to personnel in the Operations and Contracting
   Divisions stating that a single individual could initiate, approve, and certify the
   PR&C as well as document receipt of the goods. One cardholder was still using
   this e-mail as guidance in January 2004.

           Required Supporting Documentation. Cardholders failed to properly
   retain required supporting documentation in accordance with the Army SOP and
   the Louisville District Guidebook. The Army SOP requires certified billing
   statements and supporting documents to be retained for 6 years and 3 months after
   final payment. The Louisville District Guidebook requires cardholders to retain
   PR&Cs, receipts, and monthly statement of accounts for 6 years and 3 months.
   However, for the 12 cardholder account files we reviewed, 10 cardholder account
   files did not contain the required supporting documentation. Specifically,

          •   eight cardholder account files were missing delegation of authority
              letters,
          •   nine cardholder account files were missing a total of 158 PR&Cs,

          •   seven cardholder account files were missing a total of 121 invoices,
              and

          •   seven cardholder account files were missing a total of 120 receiving
              reports.


Summary
   Our review of purchase card files and transactions showed that improvements
   needed to be made to purchase card controls. District purchase card managers did
   not effectively implement Army purchase card guidance and did not adequately


                                        8
    enforce existing purchase card program controls. District policies and procedures
    were not updated to reflect Army purchase card program requirements. As a
    result, separation of duties was inadequate and required annual purchase card
    reviews were not effective. In addition, controls for initiating, approving, and
    certifying purchases were inadequate. Furthermore, Government personnel
    created vendor invoices, cardholders received different interpretations on
    guidance, and cardholders did not properly retain required supporting
    documentation in their files because District managers did not adequately enforce
    existing purchase card program controls.

    Purchase card program policies and procedures need to be effectively
    implemented, program management must emphasize program oversight
    responsibility, and controls need to be enforced. Of particular concern are the
    June 2002 Army Regulation 15-6 report recommendations to designate a full-time
    APC and develop and implement strict guidelines for performing annual account
    reviews. District management did not ensure the appointment of an APC for
    16 months after the recommendation was made. The APC occupies a key
    position in the purchase card program because this individual is both the primary
    source of support to management and cardholders and a critical element of the
    internal control program. District management must engage in more proactive
    oversight to mitigate risks associated with the purchase card program. District
    management must recognize the need to address program recommendations and
    fully support implementing recommendations.

    The purchase card program is vital to the efficient operation of the DoD. While
    providing efficiency and savings to the Government, the purchase card program
    can pose a high level of risk because it promotes decentralized purchasing and
    may allow the same individual to order and receive goods and services. There is
    a potential for fraud and abusive or improper transactions. Losing the capabilities
    that purchase cards provide would require the reestablishment of a costly
    acquisition infrastructure. Therefore, managers at all levels must put the utmost
    stress on the proper management of the program. The recommendations
    contained in this report, if fully implemented, will improve the strength of the
    controls of the purchase card program.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commander, Louisville District:

          a. Require a full-time Agency Program Coordinator dedicated to
    implementing and overseeing effective purchase card program controls.

    Management Comments. The Deputy Commander, U.S. Army Corps of
    Engineers concurred, stating that the Louisville District hired a full-time Agency
    Program Coordinator in April 2004. Also, the purchase card program will be
    reviewed and revised to adhere to all requirements.




                                         9
       b. Direct that purchase card program guidance implements Army
requirements and is appropriately disseminated throughout the District.

Management Comments. The Deputy Commander concurred and stated that the
action would be completed in 90 days.

       c. Clearly identify the Agency Program Coordinator as the single
point of contact for all questions related to the purchase card program.

Management Comments. The Deputy Commander concurred and stated that the
action would be completed in 90 days.

A.2. We recommend that the Agency Program Coordinator, Louisville
District:

      a. Revise the Louisville District Guidebook to adequately implement
the Army Standing Operating Procedure. Specifically, the Louisville District
Guidebook should address annual purchase card account reviews and
adequate separation of duties.

Management Comments. The Deputy Commander partially concurred and
stated that the Louisville District Guidebook will be revised to adequately
implement the Army Standard Operating Procedure, but the Louisville Guidebook
did not need to address adequate separation of duties because the District is
following Headquarters guidance (see Recommendation A.2.b.(2).).

Audit Response. The comments concerning the separation of duties are not
responsive. The Louisville District Purchase Card Program did not comply with
Army requirements for separation of duties, and controls over separation of duties
for initiating, approving, and certifying purchases were inadequate. We request
that the Deputy Commander reconsider his position and provide additional
comments or alternate solutions for the recommendation.

      b. Annually review 100 percent of approving official accounts in
accordance with the Army Standing Operating Procedure to verify:
              (1) Compliance with purchase card guidance.

Management Comments. The Deputy Commander concurred and stated that the
action would be completed in 180 days.

             (2) Purchase requests and commitments are initiated,
approved, and certified by three different individuals.

Management Comments. The Deputy Commander nonconcurred with requiring
that purchase request and commitments be initiated, approved, and certified by
three different individuals. The Corps Government purchase cardholders were
exempt from the policy that no one individual can be granted the authority to
initiate, approve, obligate funds, and receive goods on the basis that adequate
separation of duties already exists within the Corps of Engineers Financial
Management System to prevent fraud and abuse. Further, purchase card


                                    10
payments may not be made until the approving official approves cardholders’
statements. The District has 42 field offices, many of which are in remote
locations with just a few employees, and the cost of implementing approval for
credit card purchases when adequate controls exist would outweigh the benefits
derived.

Audit Response. We disagree that adequate separation of duties exists in the
credit card process to prevent fraud and abuse. The Louisville District had not
complied with Army requirements for separation of duties. Purchase requests and
commitments were not initiated, approved, and certified by three different
individuals as required by the Army SOP. Furthermore, the Army Corps of
Engineers does not have the authority to exempt cardholders from the Army SOP
requirement for separation of duties. We request that the Deputy Commander
reconsider his position and provide additional comments or alternate solutions on
the recommendation.

              (3) Cardholders accept only invoices originally prepared by
the vendor in accordance with the commercial item clause of the contract.

Management Comments. The Deputy Commander concurred and stated that the
action would be completed in 90 days.

             (4) Cardholder and approving official account files are
maintained in accordance with Army guidance.

Management Comments. The Deputy Commander concurred and stated that the
action would be completed in 90 days.




                                   11
           B. Contracting Controls
           U.S. Army Corps of Engineers, Louisville District contracting actions
           were not consistently executed in accordance with applicable regulations.
           Specifically, 6 of 11 contracts that we reviewed contained contracting
           irregularities in the following areas:

                   •   contract documentation signature authority (1 contract),

                   •   source selection plan approval timeliness (3 contracts),

                   •   solicitation procedures application (1 contract), and

                   •   design-build civil works contract funding (1 contract).

           We did not find these irregularities on the five remaining contracts.

           The irregularities occurred because internal management control
           procedures were inadequate to ensure that contracting personnel complied
           with established procurement regulations. As a result, the Louisville
           District Contracting Division cannot ensure that the contracting functions
           are being effectively carried out.


Army Corps of Engineers Procurement Guidance
    The District established internal acquisition guidance in Louisville District
    Procedural Acquisition Instructions, January 1, 2001, which generally
    supplemented the Federal Acquisition Regulation (FAR), Defense FAR
    Supplement, Army FAR Supplement, Engineer FAR Supplement (EFARS), and
    other DoD and Army regulations. However, the Louisville District guidance is
    not specific on contracting procedures for supplies, equipment, and services
    regarding contract documentation signature authority, source selection plan
    approval timeliness, solicitation procedures application, and design-build civil
    works contract funding. Because the Louisville District guidance is inadequate,
    the contracting office cannot provide reasonable assurance that contracting
    functions are being effectively carried out in accordance with applicable laws and
    regulations.


Management and Administration of Contracts
    The U.S. Army Corps of Engineers, Louisville District has both civil works and
    military construction contracting responsibilities. The civil works services
    include flood control, navigation, water supply, water quality, hydropower,
    environmental conservation, recreation, and emergency response. The military
    construction mission of the District is in support of Army, Air Force, and DoD
    facilities located in the five-state area of Illinois, Indiana, Kentucky, Michigan,
    and Ohio. During FY 2002, the District Contracting Division processed about

                                         12
2,400 contracting actions with total obligations valued at $488.2 million. We
reviewed elements of 11 contracts that were awarded by the District Contracting
Division during the past 5 years. Our review found irregularities in District
contracting actions.

Contract Documentation Signature Authority. An administrative contracting
officer (ACO) acted outside his authority by signing contract modifications. In
May 2000, a contracting officer for contract DACA27-99-C-0050 appointed an
ACO to exercise limited contracting officer authority allowed by the EFARS.
The appointment letter specified that the ACO may modify the contract within the
scope of the contract under the specified clauses unique to construction contracts,
provided that no individual contract modification exceeds $100,000. However,
between February 22, 2001, and August 14, 2002, the ACO executed and signed
eight contract modifications with amounts ranging between $116,800 and
$300,000. No documentation indicated that a control procedure was in place to
prevent such contracting irregularities.

Source Selection Plan Approval Timeliness. The Source Selection Authority
(SSA) and Office of Counsel, Louisville District did not approve source selection
plans before solicitations were issued for 3 of the 11 contracts that we reviewed.
For example, the District Contracting Division issued contract solicitation
DACW27-02-R-0004 on March 21, 2002, but the SSA did not approve the source
selection plan until June 20, 2002, 3 months after the issuance of the solicitation.
FAR Subpart 15.3, “Source Selection,” states that the objective of source
selection is to select the proposal that represents the best value to the
Government. Additionally, the FAR requires the SSA to approve the source
selection plan before issuing it. According to the source selection plan for
solicitation DACW27-02-R-0004, the Chief of the District Contracting Division
was the SSA. The SSA has full responsibility to prepare and maintain the source
selection plan before the solicitation is issued, as prescribed by the District
procurement guidance.

Solicitation Procedures Application. District Contracting Division personnel
inappropriately used an architect and engineer (A&E) service contract to procure
project management services. District Contracting Division personnel awarded
contract DACA27-00-D-0004 under the Brooks Act, section 541, title 40, United
States Code, (40 U.S.C. 541), as an A&E services contract. However, the
primary scope and use of the contract indicated that the contract was for project
management services, including developing plans, schedules, and attending and
setting up meetings. The contract scope matched standard project management
services listed in the FAR. As a result, District Contracting Division personnel
used an A&E service contract, which was an improper solicitation procedure, to
procure project management services that do not fall under A&E services.

Design-Build Civil Works Contract Funding. District Contracting Division
officials incrementally funded a design-build civil works contract in accordance
with U.S. Army Corps of Engineers procurement regulations (EFARS 32.7,
“Contract Funding”). However, the requirement to incrementally fund
design-build contracts conflicts with Engineering Regulation 1180-1-9,
“Design-Build Contracting,” which requires civil works project contracts to be
fully funded at the time of award. Contract DACW27-02-C-0005 was a civil


                                     13
    works design-build contract for the design and construction of the Olmstead Miter
    Gate Storage Facility at Smithland Locks and Dam, Hanletsburg, Illinois. The
    contract was not fully funded at the time of award, as required by Engineering
    Regulation 1180-1-9. The contract contained EFARS clause 52.232-5001,
    “Continuing Contracts,” which required incremental funding. The contracting
    officer stated that the contract award complied with prescribed procurement
    regulations, primarily the EFARS. EFARS 32.7, “Contract Funding,” authorizes
    the use of civil works incrementally funded contracts and does not reflect the
    funding restriction in Engineering Regulation 1180-1-9. The District personnel
    were unaware of Engineering Regulation 1180-1-9 requirements, and did not
    comply. Contract awards of this type will continue to violate one of the
    regulations until the conflict between EFARS 32-7 and Engineering
    Regulation 1180-1-9 is resolved.


Summary
    U.S. Army Corps of Engineers, Louisville District could not ensure that its
    contracting functions were effectively carried out during the contract award
    process. U.S. Army Corps of Engineers, Louisville District needed to establish
    internal policies and procedures to ensure future compliance with established
    procurement regulations. Based on our review of the 11 contracts, we believe
    there is a need for refresher training on overall contracting procedures to ensure
    that the contracting functions are being effectively carried out by contracting
    personnel. In addition, because the review was limited to the 11 contracts related
    to the Hotline allegations, there is potential for other contract awards to contain
    different kinds of issues. Also, U.S. Army Corps of Engineers Headquarters
    needed to clarify conflicting provisions between the EFARS and Engineering
    Regulation to prevent confusion in complying with prescribed regulations in the
    future.


Recommendations
    B.1. We recommend that the Commander, Louisville District:

           a. Direct the Chief of the District Contracting Division, Louisville
    District to strengthen the District internal management control procedures
    for compliance with applicable procurement guidance to include controls on
    contract documentation signature authority, source selection plan approval
    timeliness, solicitation procedures application, and design-build civil works
    contract funding.

            Management Comments. The Deputy Commander, U.S. Army Corps of
    Engineers concurred and stated that the Contracting Division has established
    several standard operating procedures and checklists to assist Contracting
    Division personnel with applicable regulatory requirements. In addition,
    administrative contracting officer documentation and signature authority will be



                                        14
taken care of when annual inspections are made by the APC Coordinator. The
Deputy Commander stated that the action would be completed in 180 days.

      b. Provide contracting personnel refresher training on overall
contracting procedures.

        Management Comments. The Deputy Commander concurred and stated
that the action would be completed in 180 days.

B.2. We recommend that the Principal Assistant Responsible for
Contracting, Headquarters, U.S. Army Corps of Engineers address the
conflicting provisions between the Engineering Regulation 1180-1-9 and
Engineer Federal Acquisition Regulation Supplement 32.7.

Management Comments. The Deputy Commander concurred, stating that the
Army Corps of Engineers is transitioning to Project Development Teams, which
will allow greater overview of projects whose contract price depends on
reservations of funds from future appropriations. The action would be completed
by June 30, 2005.




                                   15
Appendix A. Scope and Methodology
   We reviewed specific allegations made to the Defense Hotline regarding purchase
   card irregularities and contracting actions at the U.S. Army Corps of Engineers,
   Louisville District and also the management control program as it relates to the
   audit objective.

   Specifically, we reviewed 12 cardholder purchase card accounts, including
   597 transactions valued at $993,000 made in FY 2003. The cardholders were
   selected for review based on:

          •   transactions over $2,500,

          •   transactions made to the same vendor within 3 days (potential split
              transactions),

          •   potential recurring services, and

          •   questionable vendors.

   We reviewed PR&C documents, invoices, receiving reports, annual cardholder
   file review memorandums, and other supporting documentation provided by
   Louisville District personnel. We interviewed key personnel from the U.S. Army
   Corps of Engineers Headquarters, Great Lakes and Ohio River Division and the
   Louisville District.

   We reviewed documentation for 11 contracts pertaining to the Defense Hotline
   allegations that were awarded by the Louisville District. Contract documentation
   included solicitations, price negotiation memorandums, Government cost
   estimates, source selection plans, contract modifications, PR&Cs, task orders,
   ACO and ordering officer delegation of authority letters, and Individual
   Contracting Action Reports. We interviewed contracting officers and
   procurement officials that were involved in the contract awards that we reviewed.
   See the following table for details regarding the contracts reviewed.

                                 Contracts Reviewed
          Contract Number        Project Description                  Contract Value
          DACA27-97-D-0015       Engineering Support Service            $300,000,000
          DACA27-98-D-0001       Contract Management Service              $3,000,000
          DACA27-98-D-0035       Installation Support Service            $25,000,000
          DACA27-99-C-0050       Plant Upgrade                           $16,953,000
          DACA27-00-D-0004       Project Management Service               $3,000,000
          DACA27-00-D-0005       Facilities Maintenance                  $50,000,000
          DACA27-01-D-0002       Installation Support Service            $15,000,000
          DACA27-01-D-0003       Maintenance and Repairs                 $30,000,000
          DACW27-02-C-0005       Construction of a Storage Facility       $8,696,000
          DACW27-02-C-0023       Lock and Dam Construction              $221,441,500
          DACA27-02-C-0027       Construction of a New Gate               $4,012,000




                                         16
    We performed this audit from July 2003 through April 2004 in accordance with
    generally accepted government auditing standards.

    Scope Limitation. We did not review Corps of Engineers Financial Management
    System procedures or controls for paying monthly purchase card bills. We
    focused on the allegations associated with the improper use of purchase cards and
    associated controls.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from Citibank and U.S. Bank, which were provided to
    us by the Defense Manpower Data Center. We did not perform a formal
    reliability assessment of the computer-processed data. However, we were able to
    establish data reliability for the information by comparing purchase card
    transaction data to source documentation. We did not find errors that would
    preclude the use of computer-processed data to meet the audit objective or that
    would change the conclusion in this report.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in the DoD.
    This report provides coverage of the high-risk area to “Improve processes and
    controls to reduce contract risk.”


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at the U.S. Army Corps of Engineers,
    Louisville District related to the allegations made to the Defense Hotline.
    Specifically, we reviewed Louisville District management controls over the
    implementation of guidance, separation of duties, purchase card account reviews,
    and maintenance of cardholder account files. Although we did not identify any
    material management control weaknesses for FY 2003, we determined that
    significant violations of the purchase card program were not reported as material
    weaknesses in FY 2002.

    In April 2002, the Chief of the District Contracting Division reported three
    purchase card program-related management control weaknesses to District
    management. However, District management did not consider that the




                                        17
weaknesses were material. In the FY 2002 Annual Assurance Statement, the
District Commander stated:


           Review of IMPAC Visa Card Program identified potential program
           violations such as split requirements and purchase of recurring
           services. As a result, we began an informal 15-6 investigation, the
           results of which are expected within a few weeks.

The memorandum stated that the weakness was not material but required
management action. The District Commander stated that District personnel had
reasonable assurance that existing management controls provided the necessary
levels of protection and safeguards to prevent fraud, waste, and abuse. However,
the Army Regulation 15-6 investigation was well under way and, with the
assistance of District contracting and internal review staff, was completed within
a few weeks of the Annual Statement of Assurance memorandum. Furthermore,
the Chief of the District Contracting Division had initially reported the
weaknesses as material. The Chief of the District Contracting Division had
responsibility for the program, had assigned staff to assist the investigator, and
was aware of the significance of the weaknesses. Therefore, District managers
were aware of the significance of the program violations and inadequate purchase
card controls and should have reported the weaknesses as a material issue.

As a result, Louisville District purchase card program issues were not included in
the U.S. Army Corps of Engineers Annual Statement of Assurance for FY 2002
as material weaknesses. However, the Army identified the purchase card program
as a material weakness in its FY 2002, Annual Statement of Assurance, and the
DoD cited that the purchase card program’s systemic weakness was caused by
inadequate emphasis on proper use of the purchase card, poorly enforced controls,
and lax oversight.




                                      18
Appendix B. Prior Coverage
    During the last five years, the GAO has issued six reports and testimony
    discussing purchase card use within the Army specifically and DoD in general.
    During that same time period, the Inspector General of the Department of Defense
    (IG DoD) has issued six reports and testimony discussing purchase card use
    within the DoD. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-04-717T, “Purchase Cards: Increased Management
    Oversight and Control Could Save Hundreds of Millions of Dollars,” April 28,
    2004

    GAO Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
    Significant Savings on Purchase Card Buys,” March 12, 2004

    GAO Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
    Program Management, but Actions Needed to Address Misuse,” December 2,
    2003

    GAO Testimony No. GAO-02-844T, “Purchase Cards: Control Weaknesses
    Leave Army Vulnerable to Fraud, Waste, and Abuse,” July 17, 2002

    GAO Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave
    Army Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002

    GAO Testimony No. GAO-02-676T, “Government Purchase Cards: Control
    Weaknesses Expose Agencies to Fraud and Abuse,” May 1, 2002


IG DoD
    IG DoD Report No. D-2004-076-T, “How to Save the Taxpayers Money Through
    Prudent Use of the Purchase Card,” April 28, 2004

    IG DoD Report No. D-2004-016, “Purchase Card Use at the Space and Naval
    Warfare Systems Command, Information Technology Center, New Orleans,
    Louisiana,” November 14, 2003

    IG DoD Report No. D-2004-002, “Selected Purchase Card Transactions at
    Washington Headquarters Services and Civilian Personnel Management Service,”
    October 16, 2003



                                       19
IG DoD Report No. D-2003-109, “Summary Report on the Joint Review of
Selected DoD Purchase Card Transactions,” June 27, 2003

IG DoD Report No. D-2002-075, “Controls Over the DoD Purchase Card
Program,” March 29, 2002

IG DoD Report No. D-2002-029, “DoD Purchase Card Program Audit
Coverage,” December 27, 2001




                                20
Appendix C. Summary of Allegations and Results
    The results of the allegations to the Defense Hotline are discussed below. The
    allegations involved purchase card controls and contracts awarded by the
    Louisville District.

Purchase Cards
    The Hotline allegations related to purchase card irregularities were associated
    with transactions reviewed from March through June 2002 as part of the Army
    Regulation 15-6 investigation. The investigation identified errant purchase card
    policies that resulted in a significant number of improper purchase card
    transactions. We reviewed transactions associated with the investigation to
    determine whether purchase card-related allegations were substantiated.
    However, allegations pertaining to the April 2000 through April 2002 data that
    were either substantiated or partially substantiated were unsubstantiated for the
    FY 2003 data. For example, we identified questionable invoices reviewed by the
    investigator but not identified or reported in the Army Regulation 15-6 report; our
    review of FY 2003 purchase card data indicated that the District cardholders were
    no longer splitting transactions or paying for recurring services without a contract
    in place.

    Allegation A.1. Split Purchases. All of the allegations under A.1. were
    associated with transactions reviewed in the Army Regulation 15-6 investigation.
    Although allegations A.1.a. through A.1.f. below were substantiated or partially
    substantiated for April 2000 through April 2002, the allegations were
    unsubstantiated for FY 2003 data. Specifically,

           a. Allegation. A pier and a boat dock were constructed using
    95 transactions totaling approximately $95,000. Also, a visitor center was
    renovated in 167 transactions totaling greater than $100,000.

            Results. Substantiated. The pier and the boat dock were constructed in
    94 separate transactions that amounted to $93,592. Each of the 94 transactions
    was less than the micro-purchase threshold. A visitor center at a lake within the
    District was renovated using 150 separate transactions that totaled $117,978.
    None of the transactions was greater than the threshold. The June 2002 Army
    Regulation 15-6 investigation report identified split purchases as a significant
    problem within the Louisville District. Our review of FY 2003 data determined
    that split purchases were no longer a significant problem for the District.

            b. Allegation. Supervisors were instructing their cardholders to split
    purchases, despite knowing this practice violated the existing rules and
    regulations.

           Results. Substantiated. Of the 35 ratification packages reviewed,
    23 contained statements from the cardholders that they were instructed by their
    supervisors to split the purchases. One of the cardholders reaffirmed this verbally
    during discussions regarding the ratification packages.


                                         21
       c. Allegation. Recurring services, such as mowing and cleaning, that
annually exceeded $2,500 were paid on a monthly basis using the purchase card
because no contract was in place for these types of services.

       Results. Substantiated. One of the ratification packages contained
110 transactions that totaled $151,046. All the transactions were for recurring
services, such as monthly mowing and cleaning, that were performed during a
period after a contract for those services had expired and before the new contract
was negotiated. Each transaction was below the $2,500 micro-purchase
threshold. However, a cardholder asked the District Contracting Division
whether acquiring these services using the purchase card was allowed until the
new contract was put in place. The District Contracting Division responded that
those charges were fine, and the cardholders relied on that guidance when making
these purchases.

       d. Allegation. Wage rates required by the Davis-Bacon Act when
construction work on a project exceeded $2,000 were not being paid.

        Results. Partially substantiated. Office of Counsel identified 90 potential
Davis-Bacon Act violations but decided it would not be productive to investigate
the matter further because a significant period of time had passed since the
actions occurred, no complaints had been received from workers, and contracting
practices had improved. Because of time and resource constraints, this allegation
was not examined further.

       e. Allegation. Cardholders were willfully telling vendors to split their
invoices to remain below the $2,500 micro-purchase threshold for the purchase
card.

        Results. Because split purchases were not identified in FY 2003
transaction data, this allegation was not examined further.

        f. Allegation. Two vendors used by the cardholders had a number of
transactions for $1,999 and $2,000 to stay under the $2,000 construction activity
threshold (the micro-purchase threshold is $2,500 for all purchase card purchases
except those including construction requirements, where the threshold is $2,000)
for purchases on the purchase card. In addition, one of those vendors had more
than 50 consecutively numbered invoices.

       Results. Substantiated. Three transactions were found for $1,999 and
13 other transactions were for exactly $2,000. The allegation of consecutive
invoices was partially substantiated. The invoices for this vendor spanned
57 numbers, from invoice number 8 through 64. Of those, 44, or 77 percent, were
present in the various ratification packages. However, there was one string of
14 consecutive invoices from this vendor, as well as 4 other instances of at least
6 consecutive invoices.

        g. Allegation. The former Chief of the District Contracting Division had
issued policy effective February 1, 1999, which stated that any supply or service
valued at $2,500 or less must be acquired using the purchase card. The guidance
further stated that the District Contracting Division would send a letter to any


                                    22
vendor that had a blanket purchase agreement and inform them that the option(s)
on those blanket purchase agreements would not be exercised if the vendor would
not accept the purchase card as payment. The policy continued that after blanket
purchase agreements expired, individual cardholders would purchase those
supplies or services. The policy ended with a “Note” that stated, “This policy
shift reduces the concern for splitting requirements. If the purchase is able to
stand alone, it is not considered splitting requirements.”

        Results. Substantiated. The Louisville District Office of Counsel was
aware of the errant guidance but took no action to correct the issue. Office of
Counsel, Louisville District issued two legal opinions on the guidance in May and
November 1999 after the guidance was issued, but the guidance remained in
effect. The guidance was superseded in March 2002 when a new Chief of the
District Contracting Division issued updated guidance.

Allegation A.2. Purchase Requests and Commitments Completed After the
Transaction. PR&Cs were often approved and certified after transactions were
completed.

Results A.2. Substantiated. Nineteen of the 35 ratification packages reviewed
contained PR&Cs that had been completed after the purchase had already been
made. Those 19 ratification packages contained 616 transactions, of which
192, or 31 percent, contained PR&Cs that were approved and certified after the
transactions were completed.

Our review of FY 2003 data indicated that 6 of the 12 cardholder account files
reviewed also contained PR&Cs completed after the purchase had already been
made. Of the 327 transactions reviewed for those 6 cardholders, 37 had PR&Cs
completed after the purchase had already been made. See finding A of this report
for details.

Allegation A.3. Services and Purchase Requests and Commitments
Completed in Different Fiscal Years. Services were being purchased in one
fiscal year and the PR&C was approved and certified in another fiscal year.

Results A.3. Partially substantiated. One cardholder account file had 37 PR&Cs
indicating that the PR&C was approved and certified in one fiscal year, but the
purchases were made and charged to the cardholder the following fiscal year.
However, the Resource Management Office stated these transactions involved
civil appropriated money, not military money, and had no time or fiscal year
restrictions. Because of time and resource constraints, this allegation was not
examined further.

Allegation A.4. Recommended Disciplinary Actions Reduced. The Army
Regulation 15-6 investigation report recommended disciplinary actions be taken
against a number of cardholders and approving officials for their actions. The
recommended disciplinary actions ranged from suspension to a warning. All the
disciplinary actions were reduced.

Results A.4. Substantiated. A Louisville District civilian personnel officer stated
that three supervisors who were recommended for suspension received letters of


                                    23
reprimand instead. The deputy district commander made the decision to change
the disciplinary action because the supervisors all stated they were not given the
opportunity to state their position. Twelve cardholders received either a warning
or counseling.

Allegation A.5. Huntington District $200,000 Building. The Operations
Division within the U.S. Army Corps of Engineers, Huntington District built a
new building that cost approximately $200,000 using credit card transactions.

Results A.5. The U.S. Army Corps of Engineers, Huntington District Internal
Review Office examined this issue and determined split purchases were in fact
used in the construction of the building. The Internal Review Office issued
Report No. LRH 02-13, which recommended that the Chief of the District
Contracting Division establish and issue clear and comprehensive guidance,
redesign purchase card training, and provide refresher training to District
Contracting Division personnel, as well as cardholders and their approving
officials. The report also made recommendations that the Chief of the Operations
and Readiness Division direct site managers to coordinate acquisition of materials
estimated to exceed purchase card limitations on projects with the District
Contracting Division and also to request indefinite delivery/indefinite quantity
contracts that identify the purchase card as a method of payment with vendors.
Finally, Huntington District Internal Review Report No. LRH 02-13
recommended the Chief of the District Contracting Division and the Chief of the
Operations and Readiness Division consider establishing a purchasing agent at the
Marietta Repair Station to ensure requirements that exceeded the micro-purchase
threshold were met in a timely manner. This allegation was not examined further.

Allegation A.6. Invoices Created by Government Personnel. Government
personnel were creating vendor invoices.

Results A.6. Substantiated. An approving official involved with some of the
ratification packages that resulted from the Army Regulation 15-6 investigation
stated District personnel created invoices for some transactions. In addition, 3 of
the 12 FY 2003 cardholder account files we reviewed contained invoices prepared
by Government personnel. All three cardholders stated they prepared invoices for
the vendors. See finding A of this report for details.
Allegation A.7. Guard Services. Guard services were contracted for at Fort
Knox, which violated Defense FAR Supplement part 237.102-70, “Prohibition on
Contracting for Firefighting or Security Guard Functions.”

Results A.7. Partially substantiated. Four Fort Knox ratification packages
contained transactions for guard services. Examples of this allegation were not
found during our review of FY 2003 transactions.

Defense Federal Acquisition Regulation Supplement 237.102-70(d) which
implements Section 332 of the 2003 National Defense Authorization Act (Public
Law 107-314) allows contracts for increased performance of security guard
functions at military installations or facilities if the security guard functions are
undertaken in response to the terrorist attacks on the United States on
September 11, 2001.


                                      24
Contracting
    Allegation B.1. Design-Build Indefinite Delivery/Indefinite Quantity
    Construction Contracts. Task orders were issued on design-build indefinite
    delivery/indefinite quantity contracts for design only, with an unpriced option for
    construction, and the construction option was never negotiated. Design was
    funded with 1 year fiscal year operation and maintenance money and construction
    was funded with different fiscal year operation and maintenance dollars, which
    the complainant stated, “violates fiscal law.”

    Results B.1. Unsubstantiated. The allegation that a task order issued for design
    only with an unpriced option for construction in violation of the Brooks Act was
    not substantiated. The Brooks Act does not prohibit issuance of a design-only
    task order with an option for construction. The Brooks Act would typically apply
    on a “design-bid-build” project. The indefinite delivery/indefinite quantity
    contract was more a “design-build” project as defined in 10 U.S.C. 2305a, and
    implemented in FAR Part 36, “Construction and Architect-Engineer Contracts.”

    The complainant’s allegation that the construction option was never negotiated
    was not substantiated. Modifications to task orders to add a construction phase to
    contracts DACA27-00-D-0005, DACA27-98-D-0035 and DACA27-01-D-0003
    were negotiated.

    The allegation that the Louisville District violated fiscal law by funding the
    design phase with one fiscal year operation and maintenance dollars and
    construction with a different fiscal year operation and maintenance dollars was
    not substantiated. Both the design and construction were funded with the Army’s
    military construction appropriation using the same year funding. There was no
    evidence of fiscal laws being violated. The service to be provided in the task
    order must be a requirement of the fiscal year during which the funds are
    available. The design and construction of a project may be the genuine needs of
    different fiscal years.
    Allegation B.2. Ordering Officer Authority. Ordering officers were not
    properly authorized. Authorization letters were issued by contracting officers and
    not by the Chief of the District Contracting Division as required. Also, the annual
    reviews of ordering officers’ records required by the Army FAR Supplement were
    never performed.

    Results B.2. Substantiated. The contract file for DACA27-98-D-0001 contained
    designation letters for ordering officers signed by the contracting officer instead
    of the Chief of the District Contracting Division as required by
    EFARS 1.602-2-91, “Appointment of Ordering Officers.” However, the
    Louisville District Internal Review Office was aware of the issue. According to
    an Internal Review report, dated October 17, 2002, the Chief of the District
    Contracting Division stated that the problem had been corrected. In addition, in
    the spring of 2002, the Chief of the District Contracting Division directed
    Contracting personnel to rescind all the ordering officer designation letters.




                                        25
The allegation that the required annual reviews of ordering officers’ records have
never been performed was also substantiated. Examination of the contracts and
contract files related to the allegation did not find any documentation that annual
reviews were performed. Army FAR Supplement 5101.602-2, “Contracting
Officers Responsibilities,” requires that a written record of the reviews be
maintained in the contract files. Internal Review was also aware of the issue.
According to an Internal Review report, dated October 17, 2002, the Chief of the
District Contracting Division had been working with the Information
Management Office to design a database to aid the District Contracting Division
in tracking ordering officers’ records. Also, the report stated that the Chief of the
District Contracting Division believed the problem was under control.

Allegation B.3. Administrative Contracting Officers. Several allegations were
made concerning improper actions related to ACOs. ACO authority had been
issued on service contract DACA27-01-D-0002, and the contractor had not
countersigned modifications; ACOs and field personnel were waiving
requirements under the contract for a lesser standard.

Results B.3. Partially substantiated. We could not substantiate the allegation that
ACO authority had been issued on service contracts. We did not find a letter of
designation for an ACO contained in the contract file for contract
DACA27-01-D-0002. Also, we reviewed an Internal Review report that was
performed to address the same issue. Internal Review Report No. 03-16 “Service
Contracts Versus Construction Contracts,” September 8, 2003, stated the auditor
did not find that a designation of a contracting officer representative for contract
DACA27-01-D-0002 was made. The Internal Review report, however, stated that
the auditors found an improper designation of an ACO for contract
DACA27-98-D-0001, a service contract.

The allegation that the contractor did not countersign contract modifications was
substantiated. Our review of contract DACA27-99-C-0050 found that 33 contract
modification documents did not have contractor signature although they were
meant to be bilateral. Thirty-two of the 33 modifications affected the contract
price, either with an increase or a decrease in the amount. When a modification is
supposed to be “bilateral” (signed by both parties), the modification may be
effective when signed only by the contracting officer when the contractor
performs in accordance with the modification, indicating that the contractor
intended to be bound. Our review did not find any documentation that would
indicate the contractor failed to perform under the contract.

The allegation that ACOs and field personnel were waiving requirements under
the contract for a lesser standard could not be determined. We were unable to
determine the validity of the allegation for lack of necessary information for the
review. As a result, we were unable to substantiate the alleged problems.

Allegation B.4. Source Selection Plan. The SSA and Office of Counsel,
Louisville District are not approving source selection plans prior to issuance of
solicitation.

Results B.4. Substantiated. The allegation was substantiated to the extent that
the SSA and Office of Counsel did not approve source selection plans prior to


                                     26
issuance of the solicitation for contract DACA27-02-C-0023. The SSA (the Chief
of the District Contracting Division) has ultimate responsibility for approving the
source selection plan before it is issued. Not approving the source selection plan
was a technical oversight by the SSA, but it had no consequence in terms of the
validity of the procurement. In the review of the contract files, we were unable to
find any bid protest ever filed over a procedural oversight. However, the SSA
should be familiar with the specific requirements of the FAR, Defense FAR
Supplement, Army FAR Supplement and the source selection plan, and should
provide direction to the contracting officer, chairperson of the source selection
board, legal counsel, and other selected members to ensure that a source selection
plan is prepared and approved prior to issuance of the solicitation.

Allegation B.5. Sole Source Items. Construction solicitations were issued
containing sole source items prior to the item(s) being synopsized and a
justification and approval approved.

Results B.5. Unsubstantiated. We agreed with the allegation that a construction
solicitation (DACA27-02-B-1001) was issued containing sole source items prior
to that item(s) being synopsized and a justification and approval approved.
However, before the contract was awarded, District Contracting Division
personnel discovered the sole source items included in the solicitation and took
corrective action by issuing an amendment to the solicitation to delete the sole
source items. The District Contracting Division issued Amendment No. 5 on
September 4, 2002.

Allegation B.6. Government Furnished Property. Government furnished
property acquired under five cost reimbursable contracts was not monitored. As a
result, a project manager transferred more than $2 million of property from the
District to a local sponsor.

Results B.6. Unsubstantiated. The responsibility for monitoring Government
furnished equipment transferred from the Logistics Management Office to the
District Contracting Division in May 2003. However, the Logistics Management
Property Book Officer continued to monitor Government furnished equipment
because the District Contracting Division had not yet assumed the responsibility.
The Property Book Officer reviewed the five cost reimbursable contracts
associated with the allegation. The Property Book Officer indicated that he was
responsible for the contracts and that only one contract had Government furnished
equipment.

The allegation that a project manager transferred District property to a local
sponsor was unsubstantiated. The U.S. Army Corps of Engineers built three
water supply wells and a municipal well house for Kinross Township in
Michigan. The actual cost of the properties was $3.4 million. A project manager
executed a DD Form 1354, “Transfer and Acceptance of Military Property,” to
transfer the properties to the Kinross Township. However, the execution of the
DD Form 1354 and the transfer of the properties were unnecessary because the
land on which the wells and well house were built was owned by the Kinross
Township; therefore, no transfer of property was required, and no improper
transfer of property took place.



                                    27
Allegation B.7. Incremental Funding of Design-Build Contract. A
design-build civil works contract was funded incrementally which was not in
compliance with Engineering Regulation-1180-1-9 requirement.

Results B.7. Substantiated. Contract DACW27-02-C-0005 was a civil works
design-build contract for the design and construction of the Olmstead Miter Gate
Storage Facility at Smithland Locks and Dam, Hanletsburg, Illinois. Although
Engineering Regulation 1180-1-9 requires that civil works project contracts be
fully funded at time of award, contract DACW27-02-C-0005 was not. The
contract contained EFARS clause 52.232-5001, “Continuing Contracts,” which
meant it was incrementally funded. The contracting officer stated that the
contract was awarded based on the prescribed procurement regulation, primarily
EFARS 32.7, “Contract Funding,” which authorizes incremental funding of civil
works contracts. This appears to contradict the provision of Engineer
Regulation 1180-1-9. The EFARS does not reflect the funding restriction
provided in Engineer Regulation 1180-1-9. We believe the U.S. Army Corps of
Engineers needs to clarify these two conflicting regulations to prevent more
confusion in the future (See Recommendation B.2. in finding B of this report).

Allegation B.8. Project Management Service versus Architect and Engineer
Services. A contract was procured under A&E services to support a Project
Management services contract, which constitutes a violation of the Competitions
in Contracting Act.

Results B.8. Partially substantiated. We agreed with the allegation that contract
DACA27-00-D-0004 was procured under the Brooks Act as an A&E services
contract and that the contract scope was for project management services
including developing plans, schedules, and attending and setting up meetings.
However, this fact alone does not violate the Competitions in Contracting Act.
FAR Subpart 6.102, “Use of Competitive Procedure,” states that selection of
sources for A&E contracts in accordance with the provisions of the Brooks Act is
a competitive procedure. Furthermore, FAR Subpart 36.601-1, “Competition,”
also states that acquisition of A&E services in accordance with the Brooks Act
will constitute a competitive procedure.

Allegation B.9. Contracts were not Managed Centrally. An indefinite
delivery/indefinite quantity contract, contract DACA27-00-D-0002, was not
centrally managed by any function within the District. As a result, contract
options expired when there was still a need for the capacity, new task orders were
issued that exceeded the value of the contract, task orders were issued beyond the
term of the contract, and actual contract usage was not tracked.

Results B.9. Undetermined. The contract file for contract DACA27-00-D-0002
was not available for review. The contract was involved in a nationwide
investigation jointly performed by the Justice Department; the Office of the
Inspector General, DoD; and the Army Criminal Investigative Division.

Allegation B.10. Inappropriate Direct Labor Charges. In April 2002, the
Chief of the Operations Division stated that the District Contracting Division
would not be receiving any more direct labor funding for its work on Operations
Division projects. The Operations Division would charge its overhead account


                                    28
for work completed by District Contracting Division personnel, even though the
work was directly related to the project.

Results B.10. Louisville District Internal Review Office Report No. 03-15,
“Contracting Office Procedure/Operations Funding,” dated March 13, 2003,
found the District Contracting Division was incorrectly charging their time. The
Chief of the District Contracting Division stated that improperly charged labor
costs had been fixed and are no longer an issue.

Other Allegations. There were additional allegations regarding utilities
contracts, blanket purchase agreements, and contracting funds administration that
will be addressed in the future, based on the availability of audit resources.




                                   29
Appendix D. Purchases Made Before
            Certification of Funding
                 Transaction   Transaction   Transaction     PR&C Certify
    Cardholder
                  Number          Date        Amount             Date
        1            1         10/14/2002      $     88.00    10/31/2002
                      2        01/24/2003           119.99    02/25/2003
        2             3        11/23/2002           891.89    11/25/2002
                      4        12/18/2002           210.50    12/19/2002
                      5        08/29/2003           990.24    09/25/2003
        3             6        05/05/2003         2,091.00    06/30/2003
                      7        06/01/2003         3,813.00    06/30/2003
        4             8        12/04/2002            40.75    01/02/2003
                      9        12/04/2002            40.75    01/02/2003
                     10        12/04/2002           176.78    01/02/2003
                     11        12/23/2002            27.50    01/06/2003
                     12        01/02/2003           176.80    01/06/2003
                     13        01/02/2003            40.75    01/06/2003
                     14        01/02/2003            40.75    01/06/2003
                     15        01/20/2003            18.66    01/22/2003
                     16        01/27/2003           286.20    01/28/2003
                     17        03/18/2003            28.00    04/01/2003
                     18        03/18/2003            43.00    04/01/2003
                     19        03/18/2003            58.00    04/01/2003
                     20        04/16/2003           450.00    04/17/2003
                     21        04/21/2003            27.23    04/30/2003
                     22        05/01/2003            72.00    05/12/2003
                     23        05/19/2003            22.98    06/10/2003
        5            24        03/13/2003           560.00    04/03/2003
                     25        09/05/2003           527.00    09/06/2003
        6            26        10/01/2002           235.04    10/09/2002
                     27        10/02/2002            77.30    10/09/2002
                     28        10/04/2002           307.03    10/31/2002
                     29        10/04/2002            74.20    10/31/2002
                     30        10/07/2002           152.88    10/11/2002
                     31        10/15/2002         1,289.60    12/03/2002
                     32        03/04/2003           101.50    04/17/2003
                     33        03/06/2003           224.64    05/06/2003
                     34        03/07/2003         1,411.78    05/06/2003
                     35        03/10/2003           378.36    05/06/2003
                     36        04/15/2003         1,115.46    04/17/2003
                     37        04/22/2003         2,415.30    04/30/2003
      Total                                     $18,624.86



                                      30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        32
Army Corps of Engineers Comments




                    33
34
35
36
37
38
39
40
41
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

David K. Steensma
Robert K. West
Joseph P. Doyle
Deborah L. Carros
Peter I. Lee
Arsenio M. Sebastian
Kelly B. Klakamp
Kimberly H. Gianfagna
Marc D. Santana
Amie M. Coffren
